No. 19-___

 

 

IN THE
Supreme Court of the Anited States

IN RE MATCO TOOLS CORPORATION, NMTC, INC. D/B/A
MATCO TOOLS AND FORTIVE CORPORATION,

Petitioners,
v.

U.S. DISTRICT COURT FOR THE
NORTHERN DISTRICT OF CALIFORNIA,

Respondent;
JOHN FLEMING,
Real Party in Interest.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

PETITION FOR WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,190 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 26, 2020.

 

Wilson-Epes Printing Co., Inc.
